                                I               NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number:        1-01060014                                                                Page 1 of 1


                                                               -_---A.
                                                                     ---

      On 25 June 01, the OIG received a letter from a dean at', -                J stating that the
      university had just completed an internal audit investigation into payroll irregularities involving a
      grant. The university has determined that there were unsupported expenses in the amount of
      $14599.20, comprising 11 fraudulently endorsed and cashed payroll checks and other various
      administrative charges between October-November 2000. The administrative employee
      responsible for the charges resigned from her position November 2000. The university refunded
      the IVSF $14599.00.                                                                         I




      On 20 February 2002, OIG sent forward its recommendation for debarment of subject for a
      period of 2 years in accordance with 45 CFR 620.215 to its debarment official.
                            I
      On 8 April 2002, NSF sent via certified mail notice of proposed debarment to the subject and
      afforded her 30 days/torespond to the proposed administrative action. NSF has not received a
      response to the action.

      On 24 September 2002, NSF sent the official debarment notification to the subject.

      Accordingly, this case is closed.




                           Agent                 Attorney                Supervisor                   AIGI

  Sign 1 date   I                         I                      I                        I
                                    NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOCILEVARD
                                        ARLINGTON, VIRGINIA 22230




   ..
 OFFICE OF THE
DEPW DIRECTOR      1
 CERTIFIED-MAIL-RETURNRECEIPT REQUESTED




 Re: Debarment
                       I
                    --
                   ---              -


 Dear,

 On April 8,2002, the National Science Foundation (NSF) sent you a Notice of Proposed
 Debarment in which NSF proposed to debar you from directly or indirectly obtaining the
 benefits of Federal brants for a period of two years. The Notice set forth in detail the
                                                                                       'I

 circumstances giving rise to your debarment. NSF's debarment action is based upon theft of
 Federal grant fund? during your employment at-' -             - ="<  In that Notice, NSF
 provided you with thirty days to respond to the proposed debarment.

 NSF did not receive any response to the Notice of Proposed Debarment. Accordingly, you are
 debarred until April 8,2004. Debarment is effective throughout the Executive branch of the
 Federal Government. Debarment precludes you from receiving financial and non-financial
 assistance and benefits under non-procurement Federal programs and activities unless an
 agency head or authorized designee makes a determination to grant an exception in
 accordance with 45 CFR 620.215. Non-procurement transactions include grants, cooperative
                           11

 agreements, scholarships, fellowships, contracts or assistance, loans, loan guarantees,
 subsidies, insurance, payments for specified use, and donation agreements. In addition, you
 are also prohibited from receiving any Federal contracts or approved subcontracts under the
 Federal Acquisition Regulations (FAR) at 48 CFR Subpart 9.4 for the period of this
 debarment. 45 CFR Section 620.1 10(c). During the debarment period, you may not have
 supervisory respondibility, primary management, substantive control over, or critical influence
 on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of
 the Federal Government.
                                I

  If you have any questions regarding the foregoing, please feel free to contact Lawrence
  Rudolph, General ~ o u n s e lNational
                                ,        Science Foundation, Office of the General Counsel, 4201
  Wilson Boulevard, Room 1265, Arlington, Virginia, 22230.
                                I       Sincerely,



                                    u   Joseph Bordogna
